OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/KOSOVO’S
ACTIVITIES FOR ECONOMIC
GROWTH
AUDIT REPORT NO. 9-000-12-004-P
AUGUST 21, 2012




WASHINGTON, D.C.
Office of Inspector General


August 21, 2012

MEMORANDUM

TO:                  USAID/Kosovo, Mission Director, Maureen Shauket

FROM:                IG/A/PA, Director, Steven Ramonas /s/

SUBJECT:             Audit of USAID/Kosovo’s Activities for Economic Growth
                     (Report No. 9-000-12-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included them in Appendix II of this
report.

The final report contains 13 recommendations to help strengthen the effectiveness of
USAID/Kosovo’s economic growth activities. On the basis of your response to the draft report,
we determined that final action has been taken on Recommendation 9 and management
decisions have been reached on the remaining recommendations. Please provide the Audit
Performance and Compliance Division of USAID’s Office of the Chief Financial Officer with
evidence of final action to close the 12 open recommendations.

Thank you for the cooperation and courtesy extended to the audit staff during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 6

     USAID/Kosovo Did Not Set Mission-Wide Policy on Municipal Revenues ............................. 6

     Project Did Not Implement Activities to Introduce the Use of Electronic Tenders for
     Procurement ......................................................................................................................... 7

     Agriculture Project Did Not Formalize Decision to Shift Focus............................................... 8

     Partners Implemented Limited Activities That Addressed Gender and Social Inclusion ......... 9

     Performance Management Plans Were Weak ..................................................................... 10

     Reported Results Were Unreliable and Required Additional Validation ............................... 14

Evaluation of Management Comments.................................................................................. 18

Appendix I – Scope and Methodology ................................................................................... 20

Appendix II – Management Comments .................................................................................. 22

Appendix III – Agricultural Project Reported and Verified Results ..................................... 26

Abbreviations

The following abbreviations appear in this report:

ADS                  Automated Directives System
BEEP                 Business Enabling Environment Program
B2B                  business-to-business
COR                  contracting officer’s representative
DEMI                 Democratic and Effective Municipalities Initiative
FTE                  full-time equivalent
FY                   fiscal year
HACCP                Hazard Analysis and Critical Control Points
IIF                  innovation and incentive fund
MOU                  memorandum of understanding
NOA                  New Opportunities for Agriculture
OIG                  Office of Inspector General
PMP                  performance management plan
SME                  small and medium enterprises
USG                  U.S. Government
SUMMARY OF RESULTS
The Republic of Kosovo has made significant progress in transitioning to a market-based
economy since declaring its independence in 2008. However, the southeastern European
nation continues to face serious economic challenges. Foreign investment is limited, due in part
to perceptions of official and informal corruption and the country’s continued struggle for
recognition. Years of positive growth rates in gross domestic product have done little to reduce
the country’s 45 percent unemployment rate. Kosovo’s 1.8 million citizens are among the
poorest in Europe, and they rely heavily on international assistance and remittances from the
Kosovar diaspora.

Agriculture remains important for the country’s largely rural population. This sector, which has
recovered slowly since the conflict of the late 1990s, is inefficient because farms are small,
technology is limited, and productivity is low. According to a 2007 World Bank assessment,
domestic agriculture met only 25 to 35 percent of local demand for food. Therefore, food
imports are high, leading to an agricultural trade imbalance of $637 million in 2008.

USAID/Kosovo strives to encourage Kosovo’s efforts to develop a viable economy and an
inclusive democracy on the path to European integration. The mission designed four projects
under its Economic Growth program and dedicated $54.5 million to achieving its goal of
increasing private sector growth and investment. The Office of Inspector General (OIG) audited
two of these projects:

   Business Enabling Environment Program (BEEP). In July 2010, USAID awarded a 3-year,
   $16.1 million task order to Chemonics International Inc. to implement BEEP. The project
   has four main objectives: (1) improve rules and regulations, (2) lower trade barriers,
   (3) improve the efficiency of the financial sector, and (4) introduce the use of electronic
   tenders or payments for local procurements. Project implementation is expected to run from
   July 2010 to July 2013.

   New Opportunities for Agriculture (NOA). USAID awarded a 4-year, $15.9 million task order
   to Tetra Tech ARD in January 2011 to carry out NOA. The project is designed to increase
   Kosovo’s agricultural outputs, exports, and rural incomes through activities that (1) link
   products and farmers to markets, (2) diversify and increase agricultural products,
   (3) improve food quality and safety, (4) make credit more affordable and accessible, and
   (5) improve coordination within the agricultural sector. Implementation is expected to run to
   February 2015.

OIG’s Performance Audits Division conducted this audit as part of its fiscal year (FY) 2012 audit
plan to determine whether USAID/Kosovo’s economic growth activities under the two projects
were achieving their goal of increasing private sector growth and investment.

BEEP and NOA activities have made some progress.             BEEP accomplished the following
objectives:

   Improved rules and regulations.    The project obtained the Kosovar Government’s
   commitment to improve its World Bank’s Doing Business ranking from 117 to top 40 status
   by 2014. BEEP also eliminated hundreds of unnecessary, obsolete, or illegal administrative
   instructions.


                                                                                               1
   Lowered trade barriers. The project reduced the number of documents needed for trade
   and eliminated redundant customs registration for traders. BEEP also helped establish a
   trade policy working group in accordance with international standards and best practices.

   Encouraged the financial sector to be more efficient. The project obtained a memorandum
   of understanding (MOU) between USAID/Kosovo and the Central Bank of Kosovo to
   upgrade the national credit registry.

NOA promoted increased investment in the country’s fledgling food production industry,
supporting producers and processors. The project stimulated investment in agricultural
technology and infrastructure designed to help producers improve the health of their plants and
to increase yields. NOA encouraged food processors to invest in the equipment needed to
meet and obtain certification of compliance with international health and safety standards. It
also helped establish linkages between producers and processors that should enable higher-
quality products to be sold for higher prices. For example:

   A farmer who used new gherkin seeds and updated farming practices reported seeing better
   quality plants and multiple harvests per season. He said he plans to pursue linkages with
   processors so that he can sell his goods for a higher price.

   NOA introduced asparagus and saffron, two crops new to Kosovo. These high-value plants
   have generated much interest among beneficiaries and could create a significant number of
   new jobs and, once established, export opportunities.




    Asparagus grows in a greenhouse (left) before it is transplanted in fields. On the right are
    saffron plants that NOA introduced to Kosovo. (Photos by OIG, April 2012)

   Apple farmers reported that trees provided by the project should produce yields of 45 to
   65 tons per hectare when mature. The trees are shorter than the varieties traditionally
   grown in Kosovo, making them easier to harvest. NOA has helped some of the farmers
   invest in antihail systems to protect their orchards from inclement weather and damage from
   animals.

   NOA introduced grape farmers to the use of a modified trellis system. The system was
   designed to support the vines to grow horizontally so that the fruit receives additional
   sunlight, improving the color and health of the plant while decreasing the incidence of
   disease.




                                                                                                   2
    One food processor successfully obtained certification of compliance with the Hazard
    Analysis and Critical Control Points,1 or HACCP, management system. According to NOA’s
    staff, this internationally recognized standard for food safety will be required for food
    processors in Kosovo by September 2013.

Despite these achievements, not all BEEP and NOA activities were on track to meet their
objectives. Because BEEP did not implement activities to increase municipalities’ use of
electronic tenders for procurements, it has not made any progress toward this goal. In NOA’s
case, because the project did not make much progress toward increasing exports,
USAID/Kosovo, with input from NOA staff members, decided to change the project’s focus to
import substitution2 to help Kosovo strengthen the domestic market for locally produced goods.
Additionally, NOA could not determine whether it made any progress toward increasing rural
incomes, partly because Tetra Tech ARD never designed an indicator to measure an increase.

Outside factors also influenced the progress of the two selected projects.             BEEP could not
control the timing and achievement of some of its desired results, such as the         passage of laws,
the adoption of regulations, and Kosovo’s changing political environment.              For NOA, which
began in January 2011, famers already had planned what they would plant                by the time staff
members were ready to begin working on the project’s first growing season.

This report outlines weaknesses identified in BEEP’s and NOA’s implementation.

    USAID/Kosovo did not set a mission-wide policy on whether to encourage municipalities to
    generate more revenue through fees, taxes, and permits or to abolish excessive ones to be
    more appealing to businesses (page 6).

    BEEP did not implement activities to introduce the use of electronic tenders for procurement
    (page 7).

    NOA did not formalize its decision to shift the project’s focus to import substitution instead of
    developing products for export (page 8).

    Partners implemented limited activities that addressed gender and social inclusion (page 9).

    Project performance management plans were weak (page 10).

    Reported results were unreliable and required additional validation (page 14).

To address these problems and to strengthen the effectiveness of USAID/Kosovo’s economic
growth activities, this report includes 13 recommendations.        We recommend that
USAID/Kosovo:

1. Develop a mission policy on the generation of municipal own source revenue and implement
   this policy in its work with municipalities in programs in the Economic Growth and
   Democracy and Governance Offices (page 6).
1
   HACCP is a management system in which food safety is addressed by analyzing and controlling
biological, chemical, and physical hazards from raw material production, procurement, and handling to
manufacturing, distribution, and consumption of the finished product.
2
  Import substitution is an economic strategy in which a country or organization tries to reduce imports by
producing the goods or products locally.


                                                                                                         3
2. Reevaluate the feasibility of implementing activities under the More Transparent Tenders
   component of the Business Enabling Environment Program. If a decision is made to not
   implement these activities, we recommend that USAID/Kosovo modify Chemonics
   International Inc.’s task order by removing this component from the scope of work and
   reducing the ceiling price by $800,000, the amount of funds dedicated to this component
   (page 7).

3. Modify the statement of work for the New Opportunities in Agriculture project to reflect the
   decision to refocus the goal of the project to supporting import substitution (page 9).

4. Work with Tetra Tech ARD to revise, as appropriate, the target for the performance indicator
   for the Total value of exports as a result of USG [U.S. Government] assistance to better
   reflect the decision to focus the New Opportunities for Agriculture project on supporting
   import substitution (page 9).

5. Work with Tetra Tech ARD to develop and implement a plan that encourages the targeting
   of project interventions that focus on increasing gender and minority inclusion under the
   New Opportunities for Agriculture project (page 10).

6. Work with Tetra Tech ARD to develop procedures to strengthen the New Opportunities for
   Agriculture monitoring and evaluation system so that it adequately measures the results of
   gender and minority inclusion in its activities (page 10).

7. Work with Chemonics International Inc. to establish a performance indicator and
   corresponding target to measure the progress of its activities designed to lower trade
   barriers under the Business Enabling Environment Program (page 12).

8. Work with Tetra Tech ARD to establish a performance indicator and corresponding target to
   measure the change in rural incomes as a result of activities under the New Opportunities
   for Agriculture project. If a proxy indicator is deemed appropriate, we recommend that
   USAID/Kosovo work with Tetra Tech ARD to adequately document the assumptions
   supporting the choice of indicator and the methodology for its collection in the New
   Opportunities for Agriculture project performance management plan (page 12).

9. Work with Chemonics International Inc. to determine a realistic, yet achievable, target for the
   performance indicator Number of requests by businesses and citizens for their own credit
   reports under the Business Enabling Environment Program (page 13).

10. Work with Tetra Tech ARD to streamline the performance management plan for the New
    Opportunities for Agriculture project by determining those performance indicators that best
    fit the criteria defined in Automated Directives System (ADS) 203.3.4.2 and eliminating
    those performance indicators that demonstrate little usefulness for project management
    (page 14).

11. Develop and implement procedures to verify that the performance results reported by its
    implementing partners are reasonably accurate, complete, reliable, and adequately
    supported (page 16).

12. Work with Chemonics International Inc. and Tetra Tech ARD to develop and implement
    procedures to verify that the data collection and analysis methodologies used to report


                                                                                                4
   results of its activities under the Business Enabling Environment Program and New
   Opportunities for Agriculture project are consistent with those outlined in the projects’
   performance management plans (page 17).

13. Work with Tetra Tech ARD to revise, as necessary, the methodologies used for the
    collection and analysis of data so that reported results under the New Opportunities for
    Agriculture project are reliable and comparable across reporting periods (page 17).

Detailed findings follow. The audit’s scope and methodology are described in Appendix I, and
USAID/Kosovo’s comments appear in Appendix II of the final report. Our evaluation of
management comments is on page 18 of the report.




                                                                                          5
AUDIT FINDINGS
USAID/Kosovo Did Not Set
Mission-Wide Policy on
Municipal Revenues
ADS 201.3.3.3 discusses USAID’s results framework and missions’ development objectives.
Development objectives may be mutually reinforcing and should not reflect solely functional
objectives. In fact, development objectives focused on specific sectors should build synergies
with other development objectives. To this end, integrated technical approaches, principles,
and resources from various sectors and sources can be used to achieve a common objective by
developing a unified programmatic approach.

USAID/Kosovo provides assistance to spur economic development in Kosovo’s municipalities
through projects managed by its Economic Growth and Democracy and Governance Offices.
Despite their shared goal, the offices have not been able to agree on a policy for municipal own
source revenues, which are funds a municipality raises by issuing licenses, fees, and permits.
Between 2008 and 2010, this category accounted for 16 to 21 percent of total municipal
revenues.

As an Economic Growth project focused on improving the business environment, BEEP
encouraged municipalities to become more appealing to businesses by abolishing unnecessary
taxes, fees, and permits. However, officials from the Democracy and Governance Office were
concerned that these reforms could clash with their Democratic and Effective Municipalities
Initiative (DEMI), which lists increasing municipal revenues among its primary goals.

USAID/Kosovo’s technical offices worked independent of each other and therefore did not
anticipate or identify potential programmatic conflicts between BEEP and DEMI in either the
planning or initial stages of implementation.

Without agreeing on a mission-wide policy on municipal own source revenues, USAID/Kosovo
risks sending mixed messages to its implementing partners and beneficiaries. Municipal
coordinators working for BEEP acknowledged that they sometimes encounter difficulties
because the two projects have different goals. In a larger concern, the discord within
USAID/Kosovo may weaken its reputation as a technical expert. The mission must adopt a
policy on municipal revenues. Therefore, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Kosovo develop a mission policy on
   the generation of municipal own source revenue and implement this policy in its work
   with municipalities in programs in the Economic Growth and Democracy and
   Governance Offices.




                                                                                              6
Project Did Not Implement Activities
to Introduce the Use of Electronic
Tenders for Procurement
According to ADS 202.3.6.1, the contracting officer’s representative (COR) must confirm that
implementing partners perform in accordance with the terms of their contracts or other
agreements. Responsibilities for monitoring contractor performance may include, among other
actions, recommending modifications. As stated in 202.3.6.3, “Making Necessary Adjustments,”
USAID missions, offices, and development objective teams must adjust their tactics when
conditions warrant. This may include developing an entirely new project (or activity) and
instrument, or simply modifying and changing existing projects or activities.

The task order for BEEP outlined four main objectives of assistance: (1) improve rules and
regulations, (2) lower trade barriers, (3) help develop a more efficient financial sector, and
(4) increase tender transparency by introducing the use of electronic tenders. However, at the
end of audit fieldwork, BEEP had not yet begun to carry out any activities toward achieving the
fourth objective. This objective was designed to reduce procurement irregularities, a principal
source of corruption. By introducing electronic tenders, the mission hoped to reduce the
amount of corruption related to the procurement of local goods and services. Funding for this
objective amounted to $800,000 or 5 percent of BEEP’s total budget of $16 million.

Officials for USAID/Kosovo and Chemonics International Inc. said they did not implement these
activities because they hoped to avoid duplicating the efforts of a World Bank project with a
similar objective. In fact, they postponed the work on the objective until after the World Bank
had finalized its plans. USAID/Kosovo currently is considering whether to restructure this
objective or replace it with another.

Until the mission decides whether to proceed with this objective, the delay reduces the amount
of time Chemonics International Inc. has to implement activities designed to increase tender
transparency. If the activity is not performed, procurement irregularities that the project was
meant to address may continue. Furthermore, the money budgeted for this goal could have
been put to better use by funding other activities.

BEEP is set to end in July 2013. For the project’s final year of implementation, USAID/Kosovo
must decide what action to take for this objective. Therefore, we make the following
recommendation.

   Recommendation 2. We recommend that USAID/Kosovo reevaluate the feasibility of
   implementing activities under the More Transparent Tenders component of the Business
   Enabling Environment Program. If a decision is made to not implement these activities,
   we recommend that USAID/Kosovo modify Chemonics International Inc.’s task order by
   removing this component from the scope of work and reducing the ceiling price by
   $800,000, the amount of funds dedicated to this component.




                                                                                             7
Agriculture Project Did Not
Formalize Decision to Shift Focus
ADS 200.3.5.6 encourages USAID missions to “improve coordination and collaboration with
development partners, test promising new approaches, build on what works, and eliminate what
does not during the implementation of the Program Cycle.” Additionally, ADS 203.3.4.5 requires
missions to set ambitious, but realistic targets for performance indicators. Missions also should
be accountable for achieving these targets.

In October 2009 the consulting firm Booz Allen Hamilton conducted an analysis for
USAID/Kosovo of the constraints and opportunities for growth of Kosovo’s agribusiness sector.
The resulting report, Kosovo Agricultural Opportunities Strategy, served as the basis for NOA.
The report recommended that Kosovo pursue a diversified crop mix with strong export potential.
NOA opted to support several of the recommended crops and focus on key points in a crop’s
value chain to improve the production and exportation of agricultural products.

In setting the goal of increasing Kosovo’s agricultural exports, NOA staff created a
corresponding performance indicator measuring the Total value of exports as a result of USG
assistance. By the time NOA ends in February 2015, it expects to attribute at least $9.7 million
in exports to its activities.

Early in the project’s implementation, NOA assessed and prepared a report on new market
opportunities for five crops in eight regional markets. According to the report, there were few
near-term opportunities for export and Kosovo’s low production volume, limited storage
capacity, and lack of postharvest technology were serious impediments to expanding external
markets for the five selected crops. The report noted that at least 5 more years of investment
and development would be needed to overcome these impediments.

During the audit fieldwork, local food processors said they had limited opportunities to export
their products. Beneficiary producers said their goods were destined for local markets and
supermarkets, not for export markets. Furthermore, by the end of FY 2011, NOA reported no
export sales in its results.

After approximately 8 months of implementation, USAID/Kosovo officials and NOA staff decided
to shift the project’s primary focus from developing products for export markets to import
substitution. NOA’s FY 2011 annual report and revised performance management plan (PMP)
both announced this change. According to the annual report, NOA plans to keep pursuing
certain export opportunities; however, import substitution seems a reasonable goal for many of
the project’s targeted value chains.

Despite realigning the project’s focus, USAID/Kosovo and NOA staff members said that
because the project’s scope of work was sufficiently broad, this change did not merit a
modification to the statement of work.

NOA’s staff revised the target for the total value of exports as a result of USG assistance in
October 2011. Despite reportedly using value chain analyses, regional market assessments,
and interviews with producers, processors, and collection points, the updated target does not
accurately reflect the project’s activities.




                                                                                               8
By shifting NOA’s priorities away from export development to import substitution, USAID/Kosovo
officials and project staff effectively changed the purpose and goal of the project. The statement
of work is no longer in line with the current activities. Also, the shift to import substitution may
slow the rates of private sector growth and investment that the mission wanted to achieve.
Furthermore, the target for Total value of exports as a result of USG assistance is overly
ambitious and unlikely to be achieved. Therefore, we make the following recommendations.

   Recommendation 3. We recommend that USAID/Kosovo modify the statement of work
   for the New Opportunities in Agriculture project to reflect the decision to refocus the goal
   of the project to supporting import substitution.

   Recommendation 4. We recommend that USAID/Kosovo work with Tetra Tech ARD to
   revise, as appropriate, the target for the performance indicator for the Total value of
   exports as a result of USG assistance to better reflect the decision to focus the New
   Opportunities for Agriculture project on supporting import substitution.

Partners Implemented Limited
Activities That Addressed
Gender and Social Inclusion
The task orders for both BEEP and NOA instruct the implementing partners to address gender
and social inclusion issues through their activities.

According to the BEEP task order, the project would “work with minority and women’s business
associations and national and local governments to strengthen the entrepreneurial opportunities
for women and minorities, both at the national and municipal/local level.” According to NOA’s
task order, that project must take gender and social inclusion issues into consideration in the
operations and outcomes so that it will promote inclusive economic growth. NOA’s monitoring
system must measure the effects of the project’s activities on women and minorities.
Furthermore, databases must disaggregate data relating to these areas when appropriate. ADS
203.3.3.5.c supports this requirement by stating that all USAID’s people-level performance
indicators must be disaggregated by sex.

USAID/Kosovo officials and Tetra Tech ARD staff members acknowledged that NOA did not
focus on implementing activities to increase opportunities for women and minorities. Instead,
NOA emphasized implementing activities that would return the greatest results.

USAID/Kosovo officials and NOA staff members admitted that agriculture is a challenging sector
for women. Cultural norms in Kosovo assume that women find it to be largely unattractive work.
According to NOA staff members, women are thought to be more interested in postharvest
activities, such as the sorting, grading, and packaging of goods to be sold instead of working the
land.

NOA’s PMP included ten people-level performance indicators whose results were to be
disaggregated by sex and/or minority group. However, NOA rarely included this information in
its reported results. The project’s FY 2011 annual report disaggregated the result for only one
indicator—Number of individuals trained in agriculture productivity through USG assistance—by
sex. No results were disaggregated by sex or minority group in the subsequent quarterly
reports. USAID officials agreed that gender especially was not addressed adequately in NOA’s
progress reporting.


                                                                                                  9
Since the vast majority of NOA’s beneficiaries are men, there are few results that could
effectively be disaggregated by sex. In the narrative sections of the performance reports, NOA
included limited information about members of the minority groups with which the project is
working.

The audit determined that BEEP staff believed that too much focus on a specific group when
defining laws and legal frameworks could be seen as discriminatory. Therefore, they were
reluctant to implement activities that catered specifically to gender or to a certain minority group.

Encouraging gender equality and minority participation in the agriculture and business sectors
are priorities for USAID/Kosovo’s management. However, with few activities geared toward
them, little progress can be made. With little reliable information available, USAID/Kosovo
cannot determine its influence on gender and minority inclusion in these sectors. Therefore, we
make the following recommendations.

   Recommendation 5. We recommend that USAID/Kosovo work with Tetra Tech ARD to
   develop and implement a plan that encourages the targeting of project interventions that
   focus on increasing gender and minority inclusion under the New Opportunities for
   Agriculture project.

   Recommendation 6. We recommend that USAID/Kosovo work with Tetra Tech ARD to
   develop procedures to strengthen the New Opportunities for Agriculture monitoring and
   evaluation system so that it adequately measures the results of gender and minority
   inclusion in its activities.

Performance Management
Plans Were Weak
ADS 203.3.3 discusses the importance of performance management—the systematic process
of monitoring program achievements. By encompassing “the tools used for assessing, learning,
and sharing,” performance management represents USAID’s “commitment to managing
development objectives for results in order to achieve the best possible development
outcomes.” USAID missions are, according to this guidance, responsible for measuring
progress toward the milestones identified for achieving foreign assistance objectives. ADS
203.3.3.4 requires that development objective teams prepare PMPs to assist with the
performance management process.

ADS 203.3.3.4 further requires that as part of the process, development objective teams should
establish performance indicators. As explained in ADS 200.6, these are used to measure
progress by comparing actual results with expected results.

Good performance indicators share several characteristics. According to ADS 203.3.4.2, they
should be practical, useful for management, direct, attributable to USAID’s efforts, and
adequate. All performance indicators require resources and effort to collect, analyze, report,
and use. So PMPs should contain as many indicators as are necessary and cost-effective for
results management and reporting purposes.

According to ADS 203.3.4.5, performance baselines and targets should be set for each indicator
in a PMP. Targets should be ambitious, but realistic, and achievable within stated time frames



                                                                                                  10
and given USAID inputs.   Furthermore, ADS 203.3.3.2 states that the performance
management process should be streamlined so that only the most useful information is
collected and reported.

According to ADS 203.3.4.7, during project implementation, performance indicators may need to
be changed or dropped because changes in priorities or other decisions that affect the scope of
a project may require the use of indicators that are different from those originally selected. They
also may need to be adjusted if they prove to be unsuitable; for example, the effort and cost
needed to collect them become excessive.

Despite these directives, we identified several weaknesses in both BEEP’s and NOA’s PMPs.

PMPs Lacked Indicators for Two Objectives. The task orders for BEEP and NOA outlined
each project’s main objectives. One of BEEP’s was to strengthen Kosovo’s international trade
capabilities by lowering trade barriers and building the capacity of trade officials and private
sector groups to make use of international trade practices and conventions. One of NOA's
objectives was to increase the incomes of people living in rural areas. However, neither
project’s PMP contained indicators to measure the progress toward achieving these desired
results.

In the case of BEEP, the project did not include an indicator that directly tracked the progress of
its trade objective. Instead, the project used trade data embedded in the World Bank Doing
Business survey and BEEP’s Determination of economic impact indicator to gauge the project’s
progress. However, the trade data used were not individually tracked, nor did they fully capture
the project’s efforts towards lowering trade barriers.

The NOA task order required the PMP to include a performance indicator measuring the
increase in rural incomes as a result of project activities. However, the staff did not attempt to
track this information.

ADS 203.3.4.2.d states that if a direct indicator cannot be used for cost or other reasons, a
proxy indicator may be substituted to measure the desired result. In this case, the assumptions
supporting the selection of the proxy indicator should be documented in the PMP and confirmed
on a regular basis. Although NOA did not formally establish a proxy indicator to serve as an
alternative measure of changing incomes in rural areas, NOA staff suggested that an estimate
of this change could be made from the data collected for the indicator measuring the level of
sales by project beneficiaries.

When submitting their initial PMPs for approval, Chemonics International Inc. and Tetra Tech
ARD officials did not propose performance indicators that measured the two important
objectives described above. BEEP staff members said they believed that the other performance
indicators would adequately capture the project’s progress in lowering trade barriers. NOA’s
staff acknowledged the difficulty in collecting sound data regarding the income levels of rural
inhabitants; furthermore, NOA did not establish a baseline from which a change in incomes
could be measured.

Without performance indicators designed to measure these desired results, USAID/Kosovo and
its partners cannot determine whether any progress has been made in reaching these important
project objectives. Therefore, we make the following recommendations.




                                                                                                11
   Recommendation 7. We recommend that USAID/Kosovo work with Chemonics
   International Inc. to establish a performance indicator and corresponding target to
   measure the progress of its activities designed to lower trade barriers under the
   Business Enabling Environment Program.

   Recommendation 8. We recommend that USAID/Kosovo work with Tetra Tech ARD to
   establish a performance indicator and corresponding target to measure the change in
   rural incomes as a result of activities under the New Opportunities for Agriculture project.
   If a proxy indicator is deemed appropriate, we recommend that USAID/Kosovo work with
   Tetra Tech ARD to adequately document the assumptions supporting the choice of
   indicator and the methodology for its collection in the New Opportunities for Agriculture
   project performance management plan.

BEEP’s Credit Performance Indicator Did Not Have a Target. BEEP’s staff did not set a
target for its Number of requests by businesses and citizens for their own credit reports
performance indicator. Staff members said that when the project began, the Central Bank of
Kosovo did not maintain historical information on the number of credit reports requested.
Therefore, BEEP could not set a meaningful target for this indicator.

After BEEP started, the Central Bank of Kosovo began to track the number of credit reports
requested. Between July 2010 and April 2012, as shown in Figure 1 below, the number of
credit reports requested increased, and an average of 36 credit reports were being requested
per month.

                               Figure 1. Number of Credit Reports Requested per Month
                                          Between July 2010 and April 2012

                                      70
                                      60
               # of Credit Requests




                                      50
                                      40
                                      30
                                      20
                                      10
                                       0



                                                            Date

                                                 Source: Central Bank of Kosovo

Without a target for this performance indicator, BEEP’s staff will not have a specific, desired
level of performance for the number of credit reports requested for the final year of the project’s
implementation. The availability of the data from the Central Bank of Kosovo should allow
USAID/Kosovo and BEEP to set a realistic target for this indicator. Therefore, we make the
following recommendation.




                                                                                                  12
   Recommendation 9. We recommend that USAID/Kosovo work with Chemonics
   International Inc. to determine a realistic, yet achievable, target for the performance
   indicator Number of requests by businesses and citizens for their own credit reports
   under the Business Enabling Environment Program.

NOA Indicators Overlapped, Were Impractical, and Could Not Be Attributed to the
Project. NOA’s monitoring and evaluation staff tracked a set of 32 performance indicators to
measure the project’s progress. However, as discussed later in this report, NOA’s reported
results have been largely incomplete, inaccurate, and inconsistent.

USAID/Kosovo officials and NOA’s staff said the PMP is onerous. Moreover, some of the
performance indicators are impractical. According to the PMP, it is difficult to measure and
judge Number of farmers, processors, and others who have adopted new technologies or
management practices as a result of USG assistance. Proper data collection for this indicator
requires significant resources because monitoring and evaluation staff must verify that new
technologies and management practices:

   Have been applied consistently by farmers for an entire planting season.

   Have been applied consistently by collectors and processors for at least 20 production
   cycles from start to finish.

   Have been declared as “adopted” by the customer.

NOA tracks similar indicators with Number of new technologies and/or management practices
introduced as a result of USG assistance and Number of individuals trained in agriculture
productivity as a result of USG assistance. These indicators require fewer resources because
there is no need to verify the long-term, consistent use of the new technology or management
practice, or to obtain an official declaration from the beneficiary that the process has been
adopted. As a result, tracking the results obtained from these indicators would be as timely and
useful for management (if not more) than tracking the number of people who adopted new
technologies and management practices.




The root system of a lettuce plant, left, develops in a germination tray before it’s transplanted in a
field. “Fertigation” machines, like the one on the right, deliver fertilizer to plants through an
irrigation system. (Photos by OIG, April 2012)



                                                                                                   13
In addition, NOA’s staff doubted the project’s ability to influence the result of some of its
indicators. For instance, the project tracks two indicators that are very similar: Number of policy
reforms/regulations/administrative procedures drafted and presented for public/stakeholder
consultation     as    a    result      of  USG      assistance     and     Number     of    policy
reforms/regulations/administrative procedures drafted and presented for public/stakeholder
consultation and submitted for approval as a result of USG assistance. However, NOA did not
implement activities designed to encourage these types of reforms. According to one staff
member, NOA’s management was considering removing the indicators because they did not
directly address the project’s activities.

NOA field staff members responsible for monitoring and evaluation were not in place when
Tetra Tech ARD developed the initial PMP. Therefore, they could not contribute to the plan’s
design. A revised PMP, approved by USAID/Kosovo in October 2011, did not significantly
change the plan or reduce the number of indicators to be tracked. Furthermore, officials from
USAID/Kosovo did not question the ability of NOA’s staff to track and report on so many
indicators.

NOA’s monitoring and evaluation staff spent significant time and resources collecting and
analyzing data for indicators that may not be practical or attributable to USAID’s efforts.
Furthermore, as discussed later in this report, the verification of NOA’s results uncovered
numerous errors in reporting. A more streamlined PMP would allow monitoring and evaluation
resources to be directed at managing fewer performance indicators and strengthening the
completeness, accuracy, and reliability of reported results. Therefore, we make the following
recommendation.

   Recommendation 10. We recommend that USAID/Kosovo work with Tetra Tech ARD
   to streamline the performance management plan for the New Opportunities for
   Agriculture project by determining those performance indicators that best fit the criteria
   defined in ADS 203.3.4.2 and eliminating those performance indicators that demonstrate
   little usefulness for project management.

Reported Results Were Unreliable
and Required Additional Validation
According to ADS 203.3.5, USAID missions should balance the quality of reported data and the
cost that it takes to collect them. In doing so, missions should ensure that data are of
sufficiently high quality to support the appropriate level of management decisions and as
complete and consistent as management needs and resources permit. High-quality data should
meet the standards outlined in ADS 203.3.5.1. They include:

   Integrity. Data should have established mechanisms in place for collection, analysis, and
   reporting.

   Precision. Data should present a fair picture of performance and enable management
   decision-making at the appropriate levels.

   Reliability. Data should reflect stable, consistent data collection processes and analysis
   methods over time.




                                                                                                14
Despite these directives, the audit team found weaknesses in BEEP’s and NOA’s reported
results.

BEEP Did Not Report Results for One Performance Indicator Accurately. One of BEEP’s
primary performance indicators tracks Economic impact of reforms adopted and implemented
as a result of project assistance. According to the project’s PMP:

       Annual economic impact is project generated or supported changes in
       government legal and/or regulatory acts and/or processes that result in
       reductions of time and/or financial cost to businesses. Impact is an annualized
       figure included in total in the report for the year in which the change occurs to the
       extent it can be reasonably ascertained as valid. Only those changes validated
       by 75 percent of a representative sample of key informants as having a positive
       impact are measured in terms of number of procedures reduced, time saved,
       costs reduced, and total savings.

BEEP staff members reported inaccurate, incomplete information for this indicator. One
economic impact was counted twice in the reported results. A second one was not recorded in
the main database.

In addition to these errors, the staff could not document the validity of each economic impact, a
key requirement outlined in the PMP. In one case, staff in the project’s main office unilaterally
increased the savings realized in one municipality for its Economic impact of the new regulation
on transport services with tow trucks without proper validation. The local municipal coordinator
reported no economic savings for this reform, while BEEP recorded $404,000 in savings, an
amount that the municipal coordinator never validated.

Staff members did not consistently confirm the amount reported for the overall economic impact
resulting from reforms that BEEP introduced. Furthermore, the project’s municipal coordinators
did not receive sufficient training on the requirements for validating savings that stemmed from
BEEP reforms. As a result, municipal coordinators did not conduct the required validation
procedures properly, nor did they maintain adequate supporting documentation of the validation
process.

NOA’s Reported Results Did Not Meet Data Quality Standards. NOA’s staff used largely
incomplete, inaccurate, and inconsistent data for activity results in performance reports. In
some instances, data could not be validated because of a lack of supporting documentation.
The extent of the errors in reporting calls into question the integrity, precision, and reliability of
the project’s reported results. Appendix III contains all of those results, as well as those the
team verified.

Integrity. Although NOA’s staff established a data collection and analysis methodology for each
indicator in its PMP, the approved methodology was not always used to calculate reported
results. For instance, for Number of delivery contracts issued for targeted crops, staff members
reported verbal contracts when only written contracts should have been recorded. Also, a
multiplier was used to capture indirect sales that would be included in Value of sales resulting
from linkages created between farmers, processors, and traders as a result of USG assistance;
the approved methodology counted only direct sales.

Precision. USAID/Kosovo and NOA staff members who signed attendance sheets for training
courses were regularly included in the results for Number of individuals trained in agricultural


                                                                                                   15
productivity through USG assistance. Furthermore, beneficiaries attending multisession training
courses were counted as unique participants for each session.

Because of these practices, NOA reported an inflated result for this indicator. Additionally, the
staff reported incomplete results for some indicators. For example, Total value of sales as a
result of USG assistance did not adequately capture all of the sales attributed to NOA during
FY 2011.

Reliability. NOA’s staff altered the methodologies used to calculate the results for some
indicators without making any adjustments to the approved methodologies in the PMP or
updating the results already reported. When calculating Value of sales resulting from linkages
created between farmers, processors, and traders as a result of USG assistance for the second
quarter of FY 2012, the staff included additional calculations that were not considered in
previous reporting periods. The results for this quarter include the value-added tax and price
markup paid by the final consumer of the goods.

In another example, they limited the result for Values of sales/purchases from smallholders for
products as a result of USG assistance for the second quarter of FY 2012 to sales from
producers. In previous reporting periods, this result included sales from processors to
supermarkets.

NOA officials set ambitious targets for the early phases of implementation. Therefore, the staff
wanted to show results from the project’s activities by the end of FY 2011—after only 8 months
of implementation. However, in some cases, these results had not yet been achieved. More
importantly, no one from either USAID/Kosovo or Tetra Tech ARD verified the results in the
progress reports to identify errors.

NOA’s management has already taken positive steps to address the weaknesses identified in its
monitoring and evaluation system. Since the project’s inception, the monitoring and evaluation
staff has used Excel spreadsheets to record the results for NOA’s numerous indicators. A
sophisticated database is currently under development, and it should help reduce reporting
errors and improve overall reporting on the project’s accomplishments.

USAID/Kosovo relies on its implementing partners’ reported results to inform decisions about its
economic growth program. However, with inaccurate, incomplete, and inconsistent data, the
regular progress reports for BEEP and NOA do not accurately reflect the accomplishments
achieved through project interventions. Incorrect and inconsistent data collection and analysis
pose difficulties in comparing results for all reporting periods to measure the change resulting
from project activities. Without procedures to verify the accuracy of reported results,
USAID/Kosovo risks making programming decisions based on weak data.

Therefore, we make the following recommendations.

   Recommendation 11. We recommend that USAID/Kosovo develop and implement
   procedures to verify that the performance results reported by its implementing partners
   are reasonably accurate, complete, reliable, and adequately supported.




                                                                                              16
Recommendation 12. We recommend that USAID/Kosovo work with Chemonics
International Inc. and Tetra Tech ARD to develop and implement procedures to verify
that the data collection and analysis methodologies used to report results of its activities
under the Business Enabling Environment Program and New Opportunities for
Agriculture project are consistent with those outlined in the projects’ performance
management plans.

Recommendation 13. We recommend that USAID/Kosovo work with Tetra Tech ARD
to revise, as necessary, the methodologies used for the collection and analysis of data
so that reported results under the New Opportunities for Agriculture project are reliable
and comparable across reporting periods.




                                                                                               17
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Kosovo agreed with all the recommendations in the draft report. On the basis of
information provided by the mission’s response to the draft report, we determined that final
action has been taken on Recommendation 9 and management decisions have been reached
on the remaining recommendations.

Recommendation 1. USAID/Kosovo has created a working group that will draft a mission
policy on the generation of municipal own source revenue and will meet periodically to ensure
coordination on municipality issues. The mission expects to finalize the policy by December 31,
2012. Accordingly, a management decision has been reached.

Recommendation 2. USAID/Kosovo is preparing the required documentation to modify the
contract with Chemonics International Inc. to replace the More Transparent Tenders component
with a component on land use reform. Once this is done, the mission will revise the contract
accordingly. USAID/Kosovo expects to finalize the contract modification by the end of October
2012. Therefore, a management decision has been reached.

Recommendation 3. USAID/Kosovo is currently drafting a modification of the task order. The
scope of work will reflect import substitution as one of the project’s objectives. This change will
more accurately capture the work being done now. The mission expects to finalize the contract
modification by the end of October 2012. Accordingly, a management decision has been
reached.

Recommendation 4. USAID/Kosovo will revise NOA’s PMP to include a performance indicator
and target(s) for import substitution, and those revisions will be documented in the revised PMP.
The mission expects to finalize the revision by the end of October 2012. Accordingly, a
management decision has been reached.

Recommendation 5. USAID/Kosovo is working with Tetra Tech ARD to address gender and
minority inclusion. Tetra Tech ARD will hire a gender specialist to consult on planning,
implementation, and monitoring of project interventions. Additionally, the mission will continue
to work with Tetra Tech ARD to address other mechanisms to target gender and minority
inclusion. The mission expects to finalize the plan by the end of October 2012. Accordingly, a
management decision has been reached.

Recommendation 6. USAID/Kosovo will develop procedures to strengthen NOA’s monitoring
and evaluation. These changes will be documented in a revised PMP. The mission expects to
finalize the revision by the end of October 2012. Accordingly, a management decision has been
reached.

Recommendation 7.          USAID/Kosovo will work with Chemonics International Inc. to
disaggregate trade indicators from the World Bank’s Doing Business Trading Across Borders
indicator. Additionally, the mission will add two performance indicators: (1) the number of
customs harmonization procedures implemented in accordance with internationally accepted
standards as a result of BEEP assistance and (2) the number of legal, regulatory, or institutional



                                                                                                18
actions taken to improve implementation or compliance with international trade and investment
agreements because of BEEP. The mission expects to finalize the revision by the end of
October 2012. Accordingly, a management decision has been reached.

Recommendation 8. USAID/Kosovo is working with Tetra Tech ARD to establish a
performance indicator and corresponding target to measure the change in rural incomes as a
result of NOA activities. If a proxy indicator is identified, the rationale for the decision and the
assumptions and methodology will be explained in the revised PMP. The mission expects to
finalize the revision by the end of October 2012. Accordingly, a management decision has been
reached.

Recommendation 9. USAID/Kosovo established a target of 960 credit report requests for the
performance indicator: Number of requests by businesses and citizens for their own credit
reports. We determined that final action has been taken on this recommendation.

Recommendation 10. USAID/Kosovo is working with Tetra Tech ARD to start streamlining the
PMP for NOA. The COR will review the revised PMP prior to its implementation and will also
review its progress periodically. The mission expects to finalize the revision by the end of
October 2012. Accordingly, a management decision has been reached.

Recommendation 11. USAID/Kosovo agreed to review the data quality assessments for BEEP
and NOA, and analyze their data verification procedures. In addition the mission will assess
how the Economic Growth Office monitors the partners’ procedures, identifying gaps and best
practices in the process. CORs for the projects will then complete new DQAs 3 months after
these changes have been implemented to verify that they are compliant. The mission expects
to finalize the changes by the end of February 2013. Accordingly, a management decision has
been reached.

Recommendation 12. USAID/Kosovo will work with Chemonics International Inc. and Tetra
Tech ARD to review their internal data collection and analysis. To assist, the mission may hold
a workshop with both implementing partners to share best practices, encourage mentoring
between partners, and ensure consistency across the economic growth portfolio. The mission
expects to finalize the procedures by the end of October 2012. Accordingly, a management
decision has been reached.

Recommendation 13. USAID/Kosovo will work with Tetra Tech ARD to revise, as necessary,
the methodologies used for the collection and analysis of data. The mission will review past
DQAs to improve internal data collection and analysis. The mission will also conduct a follow-
up DQA to assess any changes to the new methodologies. The mission expects to finalize the
review by the end of October 2012. Accordingly, a management decision has been reached.




                                                                                                 19
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objectives. We believe that the evidence obtained provides that
reasonable basis.

The objective of the audit was to determine whether selected USAID/Kosovo’s economic growth
activities were achieving their goal of increasing private sector growth and investment. In
planning the audit, the audit team reviewed USAID/Kosovo’s economic growth portfolio for
increasing private sector growth and investment. The current portfolio has four projects, worth a
total of $54.5 million. The audit team reviewed two, BEEP and NOA, which represent almost
60 percent of the funding.

USAID awarded a $16.1 million time-and-materials task order to Chemonics International Inc.
under the Support for Economic Growth and Institutional Reform Global Business, Trade, and
Investment II indefinite quantity contract to implement BEEP. The 3-year project, expected to
run from July 2010 to July 2013, is designed to improve Kosovo’s business enabling
environment.     As of February 2012, cumulative obligations and disbursements under BEEP
totaled $12.9 million and $6.6 million, respectively.

NOA is implemented through a $15.9 million cost-plus-fixed-fee task order issued to Tetra Tech
ARD through the RAISE PLUS indefinite quantity contract. The 4-year project, expected to run
from January 2011 to February 2015, aims to increase Kosovo’s agricultural outputs, exports,
and rural incomes. As of February 2012, cumulative obligations and disbursements under NOA
totaled $7.4 million and $3.3 million, respectively.

OIG conducted audit fieldwork in Kosovo from April 17 to May 18, 2012. We conducted our
fieldwork at USAID/Kosovo and implementing partner offices in Pristine and at beneficiary sites
in and around the cities of Fushe Kosove, Gjakove, Gjilan, Klina, Mamushe, Mitrovice, Mramor,
Peje, Prizren, Rahovec, Suhareke, and Vushtrri. Our fieldwork covered the period from July
28, 2010, to May 18, 2012.

In planning and performing the audit, we assessed management activities and controls
established by USAID/Kosovo and its implementing partners. This included reviewing task
orders and modifications, annual work plans, performance management plans, performance
reports, data quality assessments, monitoring reports, and portfolio reviews. We also reviewed
USAID/Kosovo’s FY 2011 annual self-assessment of management controls for its economic
growth office. In addition, for both of the selected projects, we assessed the implementing
partners’ activities to address any problems related to trafficking in persons and gender
inclusion.




                                                                                              20
                                                                                      Appendix I


Methodology
To answer the audit objective, we obtained an understanding of what USAID/Kosovo intended
to accomplish through its economic growth program, particularly BEEP and NOA. We
interviewed officials from USAID/Kosovo, including the technical officers responsible for
overseeing the management of the selected projects. We interviewed the implementing
partners’ personnel responsible for carrying out the selected projects and for reporting the
results of activities. Also, we met with officials from the Central Bank of Kosovo, Ministry of
Agriculture, Forestry, and Rural Development, Ministry of Trade and Industry, and the Prime
Minister’s Office of Legal Support and Services. We conducted site visits with a judgmental
selection of project beneficiaries.    We reviewed key project documents to obtain an
understanding of the design, principal activities, monitoring and evaluation procedures, and
progress achieved for BEEP and NOA. On the basis of the collective results from these
activities, we determined the progress of USAID/Kosovo’s selected economic growth activities
toward the progress of the program’s goals.

We assessed USAID/Kosovo’s management of its economic growth program by reviewing
applicable policies and strategic plans, annual work plans, quarterly and annual progress
reports, and other key project documents produced by USAID/Kosovo and its implementing
partners. We compared the expected results with the reported results. We performed site visits
to observe and discuss the progress and impact of project activities. We judgmentally selected
sites that represented the various components of the projects.

We determined the accuracy of the results that the implementing partners reported by
comparing the results with the supporting documentation maintained in the partners’ main and
field offices. Furthermore, the team reviewed the World Bank Doing Business database for
BEEP’s reported results. In completing our verification fieldwork, we established a materiality
threshold of 5 percent. Therefore, if the results of our validation showed a difference of
5 percent or less between the reported and verified result, we considered the reported results to
be reasonably accurate.




                                                                                              21
                                                                                   Appendix II



MANAGEMENT COMMENTS



MEMORANDUM


TO:           IG/A/PA, Director, Steven Ramonas

FROM:         USAID/Kosovo Mission Director, Maureen A. Shauket

SUBJECT:      Management Comments to Audit of USAID/Kosovo’s Activities for Economic
              Growth (Report No. 9-000-12-00X-P)


DATE:         August 06, 2012

===============================================================

Thank you for the opportunity to provide USAID/Kosovo’s written comments to the subject
report. USAID/Kosovo agrees with all 13 recommendations. Below is USAID/Kosovo’s position
on each recommendation, the planned actions and the target dates for addressing the
recommendations. Action on the first recommendation will be completed by December 31,
2012; action on recommendation 11 will be completed by February 28, 2013; action on the
remaining recommendations will be completed by October 31, 2012.

USAID/Kosovo Position on Each Recommendation

Recommendation 1: Develop a mission policy on the generation of municipal own
source revenue and implement this policy in its work with municipalities in programs in
the Economic Growth and Democracy and Governance Offices.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. The Mission has
already created a Municipality Working Group, convened by the Economic Growth Office,
including members from DGO, Program Office and the Financial Management Office. The
Municipality Working Group will be involved in the drafting of the mission policy and will also
continue to meet periodically to ensure coordination on municipality issues. We expect the
mission policy to be finalized by December 31, 2012.

Recommendation 2: Reevaluate the feasibility of implementing activities under the
“More Transparent Tenders” component of the Business Enabling Environment
Program. If a decision is made to not implement these activities, we recommend that
USAID/Kosovo modify Chemonics International’s task order by removing this component



                                                                                            22
                                                                                        Appendix II


from the scope of work and reducing the ceiling price by $800.000, the amount of funds
dedicated to this component.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. EGO is currently
drafting a modification of the task order that will address this recommendation. The component,
More Transparent Tenders, remained on hold during the projects’ first two years, pending the
resolution on a variety of donors’ intentions. A significant amount of buy-in from the Government
of Kosovo and other donors is required for this activity to be effective.

While e-procurement remained on hold, BEEP assisted the Ministry of Environment and Spatial
Planning (MESP) develop a transformational Law on Construction to address long-standing
defects in the Kosovo construction legal framework. Following the adoption of the law, work
remains to be done on implementing the Law on Construction, drafting a Law on Spatial
Planning and developing the Construction Code. MESP requires additional resources to
implement these activities. EGO is preparing the required documentation to modify the contract
with Chemonics International to replace the More Transparent Tenders component with a
component on Land Use Reform. Once that documentation is finalized, we will know the amount
by which the contract ceiling is to be revised. We expect the contract modification to be finalized
by the end of October 2012.

Recommendation 3: Modify the statement of work for the New Opportunities in
Agriculture project to reflect the decision to refocus the goal of the project on supporting
import substitution.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. EGO is currently
drafting a modification of the task order that will address this recommendation. The scope of
work will reflect import substitution as one of the goals of the project. This change will more
accurately capture work that is currently on-going; there is no change in activities of the project
in this request. We expect the contract modification to be finalized by the end of October 2012.

Recommendation 4: Work with TETRA TECH ARD, to revise, as appropriate, the target for
the performance indicator for the “total value of exports as a result of USG assistance”
to better reflect the decision to focus the New Opportunities for Agriculture project on
supporting import substitutions.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. A performance
indicator and target(s) for import substitution will be documented in a revised Performance
Management Plan for the project. We expect this to be finalized by the end of October 2012.

Recommendation 5: Work with TETRA TECH ARD, to develop and implement a plan that
encourages the targeting of project interventions that focus on increasing gender and
minority inclusion under the New Opportunities for Agriculture project.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. EGO is currently
working with TETRA TECH ARD to address this important issue. TETRA TECH ARD is hiring a
gender specialist, to advise on planning, implementation and monitoring project interventions
that will focus on gender and minority inclusion starting with the project’s support to the Ministry
of Agriculture Forestry and Rural Development (MAFRD), specifically the Agricultural Extension
Service. Additionally, the mission will continue to work with TETRA TECH ARD to address other




                                                                                                  23
                                                                                            Appendix II


mechanisms to target gender and minority inclusion. [We expect this to be finalized by the end
of October 2012.]3

Recommendation 6: Work with TETRA TECH ARD, to develop procedures to strengthen
the New Opportunities for Agriculture monitoring and evaluation system so that it
adequately measures the result of gender and minority inclusion in its activities.

USAID/Kosovo Response: USAID/Kosovo agrees and supports this recommendation. EGO
has already engaged TETRA TECH ARD on this issue. These changes will be documented in a
revised Performance Management Plan for the project. We expect this to be finalized by the end
of October 2012.

Recommendation 7: Work with Chemonics, International to establish a performance
indicator and corresponding target to measure the progress of its activities designed to
lower trade barriers under the Business Enabling Environment Program.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. The project has
been using a performance indicator that captures this information along with other information.
The World Bank’s Doing Business Trade Across Borders indicator is actually comprised of a
number of sub-indicators that are then combined. Some of the sub-indicators measure the
progress of USAID’s activities designed to lower trade barriers. We will work with Chemonics to
disaggregate this indicator. Additionally, the following indicators will be added: (1) the number
of customs harmonization procedures implemented in accordance with internationally accepted
standards as a result of BEEP assistance, and (2) the number of legal, regulatory, or
institutional actions taken to improve implementation or compliance with international trade and
investment agreements due to support from BEEP. All reforms that lower barriers to trade will
be captured in the disaggregated entries as this measure is directly attributable to project
activities and demonstrably contribute to an improved business environment. We expect these
to be finalized by the end of October 2012.

Recommendation 8: Work with TETRA TECH ARD, to establish a performance indicator
and corresponding target to measure the change in rural incomes as a result of activities
under the New Opportunities for Agriculture Project. If a proxy indicator is deemed
appropriate, we recommend that USAID/Kosovo work with TETRA TECH ARD, to
adequately document the assumptions supporting the choice of indicator and the
methodology for its collection in the New Opportunities for Agriculture project
performance management plan.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. EGO has already
engaged TETRA TECH ARD on this issue. If a proxy indicator is identified, the rationale for the
decision and the assumptions and methodology will be well explained in the revised
Performance Management Plan. We expect these to be finalized by the end of October 2012.

Recommendation 9: Work with Chemonics, International to determine a realistic, yet
achievable, target for the performance indicator “number of requests by businesses and
citizens for their own credit reports” under the business Enabling Environment Program.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. As an ambitious
but achievable goal for the “number of requests by businesses and citizens for their own credit

3
    Date of completion was omitted in USAID/Kosovo’s initial response but later added as an amendment.


                                                                                                     24
                                                                                     Appendix II


reports”, USAID and Chemonics, International have established the target of 960 credit report
requests. This is 80 new requests every month for the next 12 months. We consider this
recommendation to be closed.

Recommendation 10: Work with TETRA TECH ARD, to streamline the performance
management plan for the New Opportunities for Agriculture project by determining those
performance indicators that best fit criteria defined in ADS 203.3.4.2 and eliminating
those performance indicators that demonstrate little usefulness for project management.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. EGO has already
engaged TETRA TECH ARD on this issue. The Contracting Officers Representative will review
the revised Performance Management Plan prior to its implementation and will also review
progress on the plan on a periodic basis. We expect this to be finalized by the end of October
2012.

Recommendation 11: Develop and implement procedures to verify that the performance
results reported by its implementing partners are reasonably accurate, complete,
reliable, and adequately supported.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. EGO will carefully
review the Data Quality Assessments (DQA) for both BEEP and NOA, analyze the data
verification procedures of both partners and also assess how the EGO office monitors the
partners’ procedures, identifying gaps and best practices. Contracting Officer Representatives
for the two projects will then complete new DQAs three months after the changes recommended
by this audit have been implemented to ensure compliance. In line with the recommendations
above, we expect the partners to have new indicators and data collection methods for those
indicators by the end of October 2012. Therefore our review of the new systems and new DQAs
will take place by the end of February 2013.

Recommendation 12: Work with Chemonics International and TETRA TECH ARD, to
develop and implement procedures to verify that the data collection and analysis
methodologies used to report results of its activities under the Business Enabling
Environment Program and New Opportunities for Agriculture project are consistent with
those outlined in the projects’ performance management plans.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. EGO will work with
both partners to review their internal data collection and analysis. A joint workshop between all
private sector EGO partners may be utilized to enhance the sharing of best practices,
encourage mentoring between partners and ensure consistency across the portfolio. We expect
this work to be finalized by the end of October 2012.

Recommendation 13: Work with TETRA TECH ARD, to revise, as necessary, the
methodologies used for the collection and analysis of data so the reported results under
the New Opportunities for Agriculture project are reliable and comparable across
reporting periods.

USAID/Kosovo Response: USAID/Kosovo agrees with this recommendation. This particular
finding will be addressed by the actions proposed in Recommendations 11 and 12; a review of
past DQAs, assistance for improving internal data collection and analysis, and a follow-up DQA
assessment. We expect this work to be finalized by the end of October 2012.



                                                                                              25
                                                                                Appendix III


    AGRICULTURE PROJECT REPORTED AND VERIFIED RESULTS

             Table III-1. NOA Reported and Verified Results FY 2011 (Audited)
                Indicator                    Reported      Verified        Difference (%)
Assistance Objective Indicators
Total Value of Sales as a Result of USG
                                             $522,304      $595,978             14.11
Assistance
Total Value of Exports as a Result of
                                                 $0           $0                 0.00
USG Assistance
Total Value of Domestic Sales as a
                                             $522,304      $595,978             14.11
Result of USG Assistance
Number of Person-Days/Full Time
Equivalents (FTE) Generated Through
                                                259     Unable to verify           -
Target Value Chains as a Result of USG
Assistance
Products and Farmers Linked to Markets
Number of Delivery Contracts Issued for
                                                 13            0                -100.00
Targeted Crops
Value of Sales Resulting from Linkages
Created Between Farmers, Processors,
                                             $138,594      $75,324              -45.65
and Traders as a Result of USG
Assistance
Number of Farmers Engaged in Target
Value Chains as a Result of USG                 331     Unable to verify           -
Assistance
Number of Participants in Study Tours,
Business to Business Meetings (B2B),             34           31                 -8.82
Market Investigation, and Trade Shows
Agricultural Products Diversified and Increased
Number of New Markets Entered for
                                                  5            5                 0.00
Target Value Chain Products
Value of Sales/Purchases from
Smallholders for Products as a Result of     $522,304      $276,496             -47.06
USG Assistance
Number of New Technologies and/or
Management Practices Introduced as a              6            6                 0.00
Result of USG Assistance
Number of Individuals Trained in
Agriculture Productivity Through USG            306           284                -7.19
Assistance
Number of Farmers, Processors, and
Others Who Have Adopted New
                                                 70            0                -100.00
Technologies or Management Practices
as a Result of USG Assistance
Number of Farmers Receiving USG
Assistance to Invest in Improved                 11           11                 0.00
Technologies
Number of Hectares Under Improved
Technologies and/or Management                  8.4           8.4                0.00
Practices as a Result of USG Assistance
Number of New Varieties (Including New
Crops) Introduced as a Result of USG             20           20                 0.00
Assistance


                                                                                          26
                                                                     Appendix III


                 Indicator                 Reported   Verified   Difference (%)
Number of Farmers Receiving New
Varieties (Including New Crops) as a          21        23           9.52
Result of USG Assistance
Food Quality and Safety Improved
Number of Firms Receiving USG
Assistance that Obtain Certification with
International Quality Control,                 1         0          -100.00
Environmental, and Other Process,
Voluntary Standards, or Regulations
Number of NOA-Supported Products
Certified and Meeting Established              0         0           0.00
International Standards
Value of Sales of NOA-Supported
                                               0         0           0.00
Certified Products
Number of Local Food Inspectors
                                               0         0           0.00
Trained
Increased Affordable and Accessible Credit
Value of Lending of Project Customers
for Targeted Crops and Products as a           0         0           0.00
Result of USG Assistance
Number of Institutions Offering New
Products Targeted at Agriculture and
                                               1         0          -100.00
Agri-business as a Result of USG
Assistance
Number of Small and Medium
Enterprises (SME) Receiving USG
                                              41        41           0.00
Assistance to Access Bank Loans or
Private Equity
Number of Producers in Target Value
Chains Receiving Assistance to Access         46        46           0.00
Credit
Value of Grants and Subcontracts Issued
for Value Chain Operations of Target
Crops and Products as a Result of USG          0         0           0.00
Assistance (excluding Innovation and
Incentive Fund [IIF])
Value of Grants and Subcontracts Issued
for Value Chain Operations of Target
                                           $387,840   $326,856       -15.72
Crops and Products as a Result of USG
Assistance (IIF)
Number of Value Chain Operators of
Target Crops and Products Receiving
                                               0         0           0.00
Grants and/or Subcontracts as a Result
of USG Assistance (excluding IIF)
Number of Value Chain Operators of
Target Crops and Products Receiving
                                              28        28           0.00
Grants and/or Subcontracts as a Result
of USG Assistance (IIF)




                                                                              27
                                                                               Appendix III


               Indicator                   Reported        Verified        Difference (%)
Improved Coordination Within Agricultural Sector
Number of Policy
Reforms/Regulations/Administrative
Procedures Drafted and Presented for            0              0               0.00
Public/Stakeholder Consultation as a
Result of USG Assistance
Number of Policy
Reforms/Regulations/Administrative
Procedures Drafted and Presented for
                                                0              0               0.00
Public/Stakeholder Consultation and
Submitted for Approval as a Result of
USG Assistance
Number of Donor, Government Of
Kosovo, and Agriculture Sector
                                               11             11               0.00
Roundtables or Other Events Facilitated
by NOA


              Table III-2. NOA Reported Results FY 2012, Quarter 2 (Audited)
                                 Quarterly Indicators Only
                 Indicator                   Reported      Verified        Difference (%)
Products and Farmers Linked to Markets
Number of Delivery Contracts Issued for
                                                  1            1               0.00
Targeted Crops
Value of Sales Resulting from Linkages
Created Between Farmers, Processors,
                                              $82,580      $59,040             -28.51
and Traders as a Result of USG
Assistance
Number of Farmers Engaged in Target
Value Chains as a Result of USG                 389     Unable to Verify         -
Assistance
Number of Participants in Study Tours,
B2B, Market Investigation, and Trade             15           13               -13.33
Shows
Agricultural Products Diversified and Increased
Value of Sales/Purchases from
Smallholders for Products as a Result of     $141,246      $97,874             -30.71
USG Assistance
Number of New Technologies and/or
Management Practices Introduced as a              4            4               0.00
Result of USG Assistance
Number of Individuals Trained in
Agriculture Productivity Through USG            207           199              -3.86
Assistance
Number of Farmers Receiving USG
Assistance to Invest in Improved                 22           22               0.00
Technologies
Number of Farmers Receiving New
Varieties (Including New Crops) as a             33           30               -9.09
Result of USG Assistance
Food Quality and Safety Improved
Number of Local Food Inspectors Trained           0            0               0.00



                                                                                        28
                                                                              Appendix III


                 Indicator                 Reported        Verified       Difference (%)
Increased Affordable and Accessible Credit
Value of Lending of Project Customers
for Targeted Crops and Products as a            0             0               0.00
Result of USG Assistance
Number of SMEs Receiving USG
Assistance to Access Bank Loans or              0             0               0.00
Private Equity
Number of Producers in Target Value
Chains Receiving Assistance to Access           0             0               0.00
Credit
Value of Grants and Subcontracts Issued
for Value Chain Operations of Target
                                            $828,145       $995,157           20.17
Crops and Products as a Result of USG
Assistance (IIF)
Number of Value Chain Operators of
Target Crops and Products Receiving
                                                0             0               0.00
Grants and/or Subcontracts as a Result
of USG Assistance (excluding IIF)
Number of Value Chain Operators of
Target Crops and Products Receiving
                                               40            33               -17.50
Grants and/or Subcontracts as a Result
of USG Assistance (IIF)
Improved Coordination Within Agricultural Sector
Number of Donor, GOK, and Agriculture
Sector Roundtables or Other Events             12             0              -100.00
Facilitated by NOA


                   Table III-3. NOA Reported Results FY 2012, Quarter 1
                             Quarterly Indicators Only (Audited)
                Indicator                    Reported      Verified       Difference (%)
Products and Farmers Linked to Markets
Number of Delivery Contracts Issued for
                                                 68          69               1.47
Targeted Crops
Value of Sales Resulting from Linkages
Created Between Farmers, Processors,
                                             $138,621      $90,500            -34.71
and Traders as a Result of USG
Assistance
Number of Farmers Engaged in Target
Value Chains as a Result of USG                 559          574              2.68
Assistance
Number of Participants in Study Tours,
B2B, Market Investigation, and Trade             37          34               -8.11
Shows
Agricultural Products Diversified and Increased
Value of Sales/Purchases from
Smallholders for Products as a Result of     $164,253      $179,554           9.32
USG Assistance
Number of New Technologies and/or
Management Practices Introduced as a              8           8               0.00
Result of USG Assistance




                                                                                       29
                                                                     Appendix III


                Indicator                 Reported    Verified   Difference (%)
Number of Farmers Receiving USG
Assistance to Invest in Improved
                                              4          0          -100.00
Technologies

Number of Farmers Receiving New
Varieties (Including New Crops) as a           76       74           -2.63
Result of USG Assistance
Food Quality and Safety Improved
Number of Local Food Inspectors
                                               13       13           0.00
Trained
Increased Affordable and Accessible Credit
Value of Lending of Project Customers
for Targeted Crops and Products as a            0        0           0.00
Result of USG Assistance
Number of SMEs Receiving USG
Assistance to Access Bank Loans or              0        0           0.00
Private Equity
Number of Producers in Target Value
Chains Receiving Assistance to Access           0        0           0.00
Credit
Number of Value Chain Operators of
Target Crops and Products Receiving
                                                0        0           0.00
Grants and/or Subcontracts as a Result
of USG Assistance (excluding IIF)
Value of Grants and Subcontracts Issued
for Value Chain Operations of Target
                                            $27,737   $27,737        0.00
Crops and Products as a Result of USG
Assistance (IIF)
Number of Value Chain Operators of
Target Crops and Products Receiving
                                                1        1           0.00
Grants and/or Subcontracts as a Result
of USG Assistance (IIF)
Number of Value Chain Operators of
Target Crops and Products Receiving
                                                0        0           0.00
Grants and/or Subcontracts as a Result
of USG Assistance (excluding IIF)
Improved Coordination Within Agricultural Sector
Number of Donor, GOK, and Agriculture
Sector Roundtables or Other Events             32       32           0.00
Facilitated by NOA




                                                                              30
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
